                                  AUDIT




 BUREAU OF INDIAN AFFAIRS
 WILDLAND FIRE SUPPRESSION




Report No.: ER-IN-BIA-0016-2009   July 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum                                                                       JUl- 13 2011
To:            Larry Echo Hawk
               Assistant Secretary - Indian Affairs

From:          Mary L. Kendall I                        ~/,-ddf
               Acting Inspector Genera

Subject:       Final Audit Report - Bureau of Indian Affairs: Wildland Fire Suppression
               Report No. ER-IN-BIA-0016-2009

        This memorandum transmits the results of our final audit report on Bureau of Indian
Affairs (BIA) use of wildland fire suppression funds . During this audit, we found weaknesses
that include significant problems with tribal agreements, insufficient monitoring of fire
suppression funds , failure to record obligations when they are incurred, and various other
recording issues.

       Our report includes six recommendations designed to improve BIA control over its use of
wildland fire suppression funds and thus to reduce the risk of fraud, waste, and abuse. Based on
management' s response to the draft report (see appendix 3), we consider all six
recommendations resolved but not implemented (see appendix 4). Accordingly, no further
response to the Office of Inspector General (OIG) on this report is necessary.

       The legislation, as amended, creating the OIG requires that we report to the U.S.
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

        We appreciated the cooperation and assistance of your staff. If you have any questions
about this report, please do not hesitate to contact me at 202-208-5745.




                               Office of Inspector Gene ral I W ashingto n. DC
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
  Objective ............................................................................................................. 2
  Background ......................................................................................................... 2
Findings................................................................................................................... 3
  Tribal Agreements ............................................................................................... 3
     Agreement Types ............................................................................................. 3
     Agreement Terms ............................................................................................ 5
  Fire Suppression Cost Monitoring ...................................................................... 7
  Recording of Obligations/Expenses and Paying of Expenses............................. 8
Conclusion and Recommendations ....................................................................... 10
  Conclusion......................................................................................................... 10
  Recommendation Summary .............................................................................. 10
Appendix 1: Objective, Scope, and Methodology ................................................ 13
  Objective ........................................................................................................... 13
  Scope ................................................................................................................. 13
  Methodology ..................................................................................................... 13
Appendix 2: Locations Visited ............................................................................. 15
  Headquarters and National Interagency Fire Center ......................................... 15
  Regions, Agencies, and Tribes .......................................................................... 15
     Northwest Region .......................................................................................... 15
     Western Region ............................................................................................. 15
Appendix 3: BIA Response to Draft Report ......................................................... 16
Appendix 4: Status of Recommendations ............................................................. 21
Results in Brief
We audited the Bureau of Indian Affairs (BIA) administration of wildland fire
suppression funds based on concerns raised by the U.S. Congress about rising
costs and by our Office of Investigations about appropriate use of funds.

We found deficiencies in BIA’s control of wildland fire suppression funds that
increase the risk of fraud, waste, and abuse. The most serious deficiencies relate
to tribal agreements, cost monitoring, recording of obligations/expenses, and
paying of expenses.

These BIA control deficiencies:

   •   Jeopardize U.S. Department of the Interior (DOI) wildland fire
       suppression effectiveness because fire suppression funds are shared
       throughout DOI;
   •   Have contributed to the large number of wildland fire-related cases
       investigated by the Office of Investigations; and
   •   Have impacted the wildland firefighting activities of states, Indian tribes,
       and other entities because they share fire suppression responsibilities.

We believe that insufficient Bureau-level guidance and monitoring are the major
contributors to the deficiencies identified, particularly in regard to those
associated with tribal agreements. We make six recommendations to improve
BIA’s control over its use of wildland fire suppression funds. BIA agreed to all of
the recommendations and initiated actions to implement them. Based on BIA’s
response to our draft report (see Appendix 3), we consider all six
recommendations resolved, but not implemented.




                                                                                      1
Introduction
Objective
The objective of this audit was to evaluate BIA’s use of wildland fire suppression
funds. We focused on wildland fire suppression costs because we believe their
emergency nature puts the use of those funds at higher risk than use of
preparedness and hazardous fuels reduction funds.

We performed our audit in accordance with generally accepted Government
auditing standards (see appendix 1 for more detail). Our audit covered costs
incurred by BIA for fire suppression during fiscal years (FY) 2007 through 2009
and focused on non-payroll related costs. We excluded direct payroll costs to keep
our audit scope to a manageable size and because the issues raised by the Office
of Investigations were largely non-payroll related.

Background
The U.S. Congress appropriates around $900 million per year to the Department’s
Office of Wildland Fire Coordination for wildland fire management. The funds
are then allocated to the bureaus with wildland fire responsibilities (BIA, Bureau
of Land Management, U.S. Fish and Wildlife Service, and the National Park
Service). BIA is allocated about $170 million for wildland fire management,
which includes preparedness, suppression, and hazardous fuels reduction.

These BIA funds serve to protect people, wildlife, property, and habitat by
providing resources for fire management programs, reducing the risk of fires, and
suppressing specific fires. On average, BIA obligates around $75 million per year
for fire suppression alone. Because the incidence, magnitude, and duration of fires
cannot be foreseen, however, suppression funds vary widely from year to year.
For example, BIA use of fire suppression funds ranged from $52 to $89 million
over FY 2007 through FY 2009.




                                                                                 2
Findings
We found that BIA is inconsistent in choosing the types of wildland fire
suppression agreements it enters into as well as how it executes those agreements.
We also identified inconsistencies in how BIA monitors fire suppression costs,
records obligations/expenses, and pays expenses. Of the 15 agreements with
Indian tribes that we reviewed, all presented one or more of these weaknesses. We
use the term “agreement” throughout this report to refer to a variety of types of
arrangements and to encompass any basic agreement and its related documents,
such as annual funding agreements.

We also identified a number of errors in our sample of 50 financial transactions
that could have been identified and corrected by a more vigorous cost monitoring
program. In our review of the recording of obligations and expenses, 18 of the 50
recorded items in our sample reflect delayed recording of both the obligation and
the expense until long after (up to 19 months) the work had been performed.

Tribal Agreements
We found no consistency or discernible logic in the decisions that BIA made on:

   •   What types of tribal agreement to select in administering wildland fire
       suppression funds; or
   •   Whether wildland fire suppression activities should be included in
       separate agreements or combined with other wildland fire management
       activities.

The result has been confusion among and within BIA regions, conflicting
agreement provisions, and discrepancies in the manner in which fire suppression
funds have been allowed to be spent.

Agreement Types
BIA uses the three following types of wildland fire suppression tribal agreements:

   •   Self-determination contracts issued under the authority of the “Indian Self
       Determination and Education Assistance Act” (Public Law (P.L.) 93-638)
       (25 U.S.C. 450 et seq.);
   •   Cooperative agreements issued under the authority of P.L. 93-638; and
   •   Cooperative agreements not issued under the authority of P.L. 93-638.

Our review of tribal agreements from six regions revealed that BIA Headquarters
has not provided sufficient guidance to the regions on use of any of those
agreements. Field personnel stated that BIA Headquarters guidance has been
either lacking or inconsistent and cited conflicting guidance on whether or not to
use P.L. 93–638 contracts for wildland fire suppression agreements. As a result,



                                                                                  3
each region, or, in some cases, each agency office that we reviewed either used
different agreements or applied the agreements differently.

In the 15 agreements reviewed, we found wide inter- and intra-regional variations
in the content of wildland fire suppression tribal agreements. Much of this
variation appeared to be due to each region designing its own agreements rather
than to differences in circumstances. Of the 15 agreements, 6 referred to P.L. 93-
638 (3 were self-determination contracts and 3 were cooperative agreements). For
three of the agreements, we could not tell whether P.L. 93-638 applied or not
because of conflicting information contained in the agreements. The remaining
agreements were not P.L. 93-638-related. The agreements, whether P.L. 93-638-
related or not, also varied in whether they covered fire suppression alone or
included other fire management activities, such as preparedness or hazardous
fuels reduction.

Use of P.L. 93-638 for Fire Suppression
Although P.L. 93-638 allows use of cooperative agreements, BIA discourages
such use in favor of P.L. 93–638 self-determination contracts. The extent to which
general P.L. 93–638 provisions apply to cooperative agreements is much less
clear because no standard cooperative agreement exists.

A model agreement for P.L. 93–638 self-determination contracts is specified at 25
U.S.C. 4501. Both BIA and the tribes are familiar with the model agreement, the
meaning of which has been tested in court cases. When applied strictly to fire
suppression, however, the model agreement becomes problematic.

For example, the model agreement favored by BIA includes indirect costs. BIA
policy1, however, does not allow indirect costs for fire suppression. In another
example, the model agreement states that payments are made quarterly or as
specified by the tribal party, whereas wildland fires are reimbursed on a fire-by-
fire basis.

In addition, according to 25 U.S.C. 450j-1(a)(2008), the amount of funds provided
under P.L. 93–638 contracts are to be specified in annual funding agreements and
should not be reduced except under certain conditions. The amount of funding
required for fire suppression in any given year, however, cannot be identified in
advance because the number, magnitude, and duration of fires vary. The standard
P.L. 93–638 contract, therefore, contains terms that seem to preclude its use for
fire suppression purposes.

In another problematic use of P.L. 93-638 contracts, we found instances in which
tribal resources were sent off-reservation, far from tribal lands to assist in fire
suppression. Programs authorized for P.L. 93–638 contracts are those for the
benefit of Indians and related administrative functions (25 U.S.C.

1
 Guidelines for Tribally Operated Wildland Fire Management Programs — Memorandum from the Deputy
Commissioner of Indian Affairs, April 6, 2001.


                                                                                                   4
450f(a)(1)(2008)). Fighting fires off-reservation, on U.S. Forest Service land for
example, does not appear to be a program for the benefit of Indians. Rather a tribe
is the same as any other entity that provides services. Consequently, such actions
would seem ineligible for inclusion in a P.L. 93–638 contract, unless they are
required to prevent the spread of fire to Indian land. The decision to issue P.L. 93-
638 contracts for these purposes has been an area of contention within BIA.

Agreement Terms
Regardless of the type of agreement used, agreement terms were, in many cases,
inconsistently used and, often, inadequate. We regularly failed to find clearly laid
out responsibilities and standards, the lack of which impedes both accountability
and efficiency. Examples included failure to identify who is responsible for:

   •   Running the fire program;
   •   Preparing and approving various documents, such as the fire management
       plan and the annual operating plan; and
   •   Dispatching resources.

Agreement terms also failed to consistently specify standards and policies to be
followed by the tribal parties in fulfilling their responsibilities. For example,
Federal agencies are required to follow the directions in the National Wildfire
Coordinating Group “Interagency Incident Business Management Handbook.”
This Handbook contains guidance for agencies to consistently address business
practices and costs. BIA failed, in several agreements, to require the tribes
involved to follow the Handbook, and, in so doing, BIA also failed to protect its
own financial interest.

We also found agreement terms related to reimbursement and indirect costs to be
inconsistent and unclear. For example, some agreements leave the rate of
reimbursement for suppression activities up to tribal discretion because BIA failed
to specify any rate at all. In another example, agreement wording developed in the
absence of BIA guidance allowed tribes to use different billing methods with
different results. Specifically, one tribe in the Western Region billed payroll at
actual tribal costs, while a second tribe billed employee costs at a standard rate
per hour.

Agreements are also often unclear on whether indirect costs can be charged. As
stated previously, BIA policy does not allow indirect costs for fire suppression. It
does allow such costs to be charged for other wildland fire activities. Four of the
agreements reviewed are silent on indirect costs. Two agreements are unclear on
whether indirect costs can be reimbursed. Two other agreements allow indirect
costs on wildland fire suppression, although this is contrary to BIA policy. The
remaining agreements prohibited indirect costs for wildland fire suppression.




                                                                                    5
Such ambiguity regarding indirect costs could result in tribes inappropriately
charging BIA. Further, BIA might be unable to recover inappropriately charged
indirect costs from tribal parties when agreement terms are unclear.
Agreements were also inconsistent in the detail of documentation of costs
required when tribes request reimbursements. Tribal submissions of such
documentation varied widely — from offering virtually nothing to providing great
detail. Consequently, BIA often pays tribes with little assurance that costs were
incurred, which exposes the funds to fraud, waste, and abuse.

Agreement specification of the timing and format of requests for reimbursement
was also inconsistent. In some cases, the submission format was based upon
verbal agreements or past practices rather than on what the relevant agreement
specifies.

We observed numerous other inconsistencies in the agreements that we reviewed,
including out-of-date agreements, references to incorrect Office of Management
and Budget circulars and laws, and missing sections. Although these other
problems are not significant in themselves, their prevalence is indicative of
inconsistent choice, use, and execution of agreements.

Absent consistency in agreement terms, BIA is at risk of overpaying for services
or paying for services not received.

 Recommendations

    1. BIA, in coordination with the Office of Solicitor, should determine
       when to use each of the following agreements with tribes: P.L. 93-638
       self-determination contracts, P.L. 93-638 cooperative agreements, and
       non-P.L. 93-638 cooperative agreements, as well as when to use other
       funding mechanisms. BIA should then establish and implement
       appropriate policy.

    2. BIA should develop and require the use of a standardized template for
       each type of tribal agreement (funding mechanism). Each template
       should provide clear instructions to ensure consistency and must
       identify, at a minimum:

        a. Which responsibilities are to be performed by a tribe and which by
           BIA;
        b. How and when the responsibilities of each party are to be carried
           out;
        c. What costs can be charged to the agreement;
        d. What invoicing and billing procedures to follow, including timing of
           invoice submission; and
        e. What documentation/support is to be provided and maintained.



                                                                                   6
Fire Suppression Cost Monitoring
BIA is responsible at both the Headquarters and regional levels for monitoring
fire suppression costs to ensure that they are reasonably supported and expended
in accordance with agreement terms. We sampled a total of 50 transactions and
found that BIA was inconsistent, at best, in monitoring fire suppression costs.

This finding corresponds to Office of Investigation results related to the misuse of
wildland fire suppression funds. For example, a tribal fire management officer
was convicted for misusing his tribal credit card to obtain over $12,000 in
improper payments from fire suppression funds. The investigator in the case told
us that BIA could have discovered this fraud if it had requested and reviewed
detailed transaction records. Similarly, a number of errors in our sample could
have been identified and corrected by a more consistently applied monitoring
program.

While BIA Headquarters has performed limited monitoring of regions in the form
of ad-hoc and as-requested fire preparedness reviews, some regions may not be
reviewed. For example, we found that fire management for the Northwest Region,
which has the largest fire suppression costs, had not been reviewed since 2000.

One form of monitoring by regions of agencies/tribes is the performance of
regular fire preparedness reviews, which assess readiness for the upcoming fire
season. Although the primary focus of the reviews is on operations, the regions
have been taking the opportunity to monitor financial and administrative areas as
well. Because BIA has provided little guidance, however, the degree of
monitoring is inconsistent.

Often, we found that the roles of fire management and procurement personnel
were not delineated. As a result, BIA has been at risk for paying tribes without
ensuring that costs were eligible and appropriate. In addition, having no clearly
defined process for monitoring and documenting invoices from tribes, BIA has
long delays in making payments.

We also identified a number of instances of financial management and accounting
errors related to inconsistent monitoring of fire suppression costs. For example:

   •   Over $600,000 in costs was incorrectly charged to a State of California
       fire code rather than to the correct tribal fire code in Montana. Further,
       multiple fires were charged to a single fire code in the Northwest Region.
   •   Over $1.3 million in obligations was incorrectly recorded in one region.
       The U.S. Department of Agriculture (USDA)–Forrest Service was charged
       rather than the State of Arizona because USDA was the first signatory to
       the agreement. Payments were made, however, to the correct party. This
       recording to an incorrect vendor occurred for at least 3 years. Since other
       Federal fire agencies are not reimbursed for fire suppression, even cursory
       examination would have revealed the error. The BIA contracting officer


                                                                                    7
         stated that he was told to leave the entry “as is,” because it was too
         difficult to change in the financial system.
     •   Over $3.7 million for agreements with tribes were incorrectly recorded as
         internal agreements during FY 2007 to FY 2009 by another region.

    Recommendations

      3. BIA Headquarters should conduct regularly scheduled fire
         preparedness reviews of regional offices. Regions should be reviewed at
         least every 5 years, although more frequently would be preferable.

      4. BIA should develop and implement guidance on performance of
         thorough financial management reviews. Guidance should require
         inclusion of a financial management review in each regular, regional fire
         preparedness review of an agency/tribal office.

      5. BIA should establish and implement procedures for the regular analysis
         of fire suppression financial data, whether performed by BIA
         Headquarters or by regional offices.


Recording of Obligations/Expenses and Paying of
Expenses
We estimate that from FY 2007 through FY 2009 around $47 million 2 in costs
was recorded in a later fiscal year than incurred. Such delayed recording hampers
monitoring of obligations and expenditures by BIA, the U.S. Congress, and
others. Failure to consistently record obligations in a timely manner can also
result in violations of the Anti-Deficiency Act, which prohibits obligation of
Federal funds without a specific appropriation.

Specifically, for 18 of the 50 transactions in our sample, both the obligation and
the expense remained unrecorded until long after the work had been performed.
As a result, amounts were recorded in the wrong fiscal years in 14 of these 18
instances.

Under the generally accepted accounting principles set by the Federal Accounting
Standards Advisory Board, obligations and expenses should be recorded when
incurred, i.e. when goods or services are provided. Similarly, the U.S.
Government Accountability Office (GAO) has long held that recording
obligations as they are incurred follows logically from an agency’s responsibility
to comply with the Anti-Deficiency Act. 3

2
  This figure is based on BIA-provided financial information and fire data. We did not have complete data on
when fires were declared out and did not verify the reliability of the fire data. Consequently, this amount
should not be viewed as more than a rough estimate.
3
  GAO, Principles of Federal Appropriations Law Third Edition, Volume II, pp. 7-8, February 2006.


                                                                                                           8
In a few cases, delayed recording was due to a state or tribe not invoicing in a
timely manner. For example, a final invoice was not sent until 19 months after the
fire to which it related was declared out. The agreement called for final invoices
to be sent within 9 months after the fire was out, unless an extension was granted.
More often, in 11 of the 18 cases of late recording, BIA delayed payment by
being slow to approve invoices or to modify contracts and cooperative
agreements. Failure to pay in a timely manner imposes financial hardships on
tribes and states.

We did not perform a detailed analysis of the underlying causes for the late
recording of wildland fire suppression obligations/expenses or for the late paying
of expenses. We do believe, however, that the underlying weaknesses in
monitoring are a contributing factor. The fact that agreements did not always
include clear billing time frames and requirements also contributed to delays.

 Recommendation

    6. BIA should develop and implement policy and procedures to ensure
       prompt recording of wildland fire suppression obligations/expenses and
       prompt payment of expenses. At a minimum, such policy and procedures
       should:

        a. Outline clear responsibilities and establish time frames for BIA review
           and approval of financial documents; and
        b. Ensure that tribal agreements reflect the established time frames (see
           recommendation no. 2).




                                                                                     9
Conclusion and Recommendations
Conclusion
In this time of fiscal austerity, effective use of wildland fire suppression funds has
become more critical than ever. During the course of this audit, however, we
found a number of BIA funds control deficiencies in the choice, use, and
execution of tribal agreements; cost monitoring at both BIA Headquarters and
regional levels; and recording of obligations/expenses and paying of expenses.
Implementation of our recommendations should increase effective use of fire
suppression funds and, in turn, improve the wildland firefighting capabilities of
DOI, states, and Indian tribes.

Recommendation Summary
To address the deficiencies identified in this report, we recommend that:

   1. BIA, in coordination with the Office of Solicitor, determine when to use
      each of the following agreements with tribes: P.L. 93-638 self-
      determination contracts, P.L. 93-638 cooperative agreements, and non-
      P.L. 93-638 cooperative agreements, as well as when to use other funding
      mechanisms. BIA should then establish and implement appropriate policy.

       BIA Response:

       BIA concurred with the recommendation. BIA will coordinate a meeting
       of the stakeholders by September 2011 to formulate standard policies and
       procedures and will produce final policy for implementation by March
       2012.

       OIG Analysis of BIA Response:

       Based on BIA’s response, we consider this recommendation resolved but
       not implemented.

   2. BIA develop and require the use of a standardized template for each type
      of tribal agreement (funding mechanism). Each template should provide
      clear instructions to ensure consistency and must identify, at a minimum:

       a. Which responsibilities are to be performed by a tribe and which by
          BIA;
       b. How the responsibilities of each party are to be carried out;
       c. What costs can be charged to the agreement;
       d. What invoicing and billing procedures to follow, including timing of
          invoice submission; and
       e. What documentation/support is to be provided and maintained.



                                                                                   10
   BIA Response:

   BIA concurred with the recommendation. BIA will provide a draft
   standardized template by October 2011 and will update guidance and
   policy covering both agreement authority and program elements. BIA will
   have standard templates in place by March 2012.

   OIG Analysis of BIA Response:

   Based on BIA’s response, we consider this recommendation resolved but
   not implemented.

3. BIA Headquarters conduct regularly scheduled fire preparedness reviews
   of regional offices. Regions should be reviewed at least every 5 years,
   although a shorter period would be preferable.

   BIA Response:

   BIA concurred with the recommendation. BIA will develop the review
   process by December 2011, with reviews beginning in calendar year 2012.
   A schedule will be developed and implemented that will ensure all regions
   have a fiscal and budget accountability review at least every 5 years.

   OIG Analysis of BIA Response:

   Based on BIA’s response, we consider this recommendation resolved but
   not implemented.

4. BIA should develop and implement guidance on performance of thorough
   financial management reviews. Guidance should require inclusion of a
   financial management review in each regular, regional fire preparedness
   review of an agency/tribal office.

   BIA Response:

   BIA concurred with the recommendation. BIA will update the Review
   Guide in 2011 and will network with the regions to ensure that their
   readiness/preparedness reviews cover the same areas.

   OIG Analysis of BIA Response:

   Based on BIA’s response, we consider this recommendation resolved but
   not implemented.




                                                                          11
5. BIA should establish and implement procedures for the regular analysis of
   fire suppression financial data, whether performed by BIA Headquarters
   or by regional offices.

   BIA Response:

   BIA concurred with the recommendation. BIA is currently performing
   reviews at a macro level and will develop and implement procedures to
   augment regional reviews by December 30, 2011.

   OIG Analysis of BIA Response:

   Based on BIA’s response, we consider this recommendation resolved but
   not implemented.

6. BIA should develop and implement policy and procedures to ensure
   prompt recording of wildland fire suppression obligations/expenses and
   prompt payment of expenses. At a minimum, such policy and procedures
   should:

   a. Outline clear responsibilities and establish time frames for BIA review
      and approval of financial documents; and
   b. Ensure that tribal agreements reflect the established time frames (see
      recommendation no. 2).

   BIA Response:

   BIA concurred with the recommendation. BIA will have new policies and
   procedures in place by March 31, 2012 (once the standard agreement
   template is in place).

   OIG Analysis of BIA Response:

   Based on BIA’s response, we consider this recommendation resolved but
   not implemented.




                                                                           12
Appendix 1: Objective, Scope, and
Methodology
Objective
The objective of our audit was to evaluate BIA’s use of wildland fire suppression
funds. More specifically, we sought to determine whether these funds were being
used for their intended purpose. We performed this audit because of congressional
concern about rising wildland fire costs and concerns voiced by the Office of
Investigations about inappropriate use of wildland fire suppression funds.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform
audits to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

In order to achieve our audit objectives, we:

   •   Interviewed BIA officials at a variety of levels;
   •   Selected a judgmental selection of regions to visit;
   •   Selected a judgmental sample of transactions to review;
   •   Identified and reviewed criteria related to wildland fire management;
   •   Gained an understanding of the process followed for allocating and
       obligating wildland fire suppression funds;
   •   Interviewed OIG investigators;
   •   Reviewed DOI and U.S. Department of Agriculture audit reports related to
       wildland fires; and
   •   Conducted other work that we considered necessary.

Scope
The scope of this audit included funds obligated or expended on wildland fire
suppression during FYs 2007, 2008, and 2009. It was restricted to funds
specifically designated for fire suppression and did not cover suppression funds
used for emergency stabilization or severity actions (the preparation and provision
of resources for especially severe fire conditions). We did not include BIA-related
payroll obligations.

Methodology
To gain an understanding of controls over the obligation and expenditure of
wildland fire suppression funds, we selected a judgmental sample of regions to
visit and of specific transactions within the regions. We selected the Northwest
Region for our initial visit, because it had the largest amount of fire suppression


                                                                                      13
expenditures. We selected the Western Region for our second visit because it had
a large level of wildland fire suppression program expenditures and a greater level
of direct BIA expenditures than the Northwest Region. Within each region, we
selected organizations (region, agency/tribe) based upon level of activity and
audit convenience.

We selected a judgmental sample of transactions, taking into consideration
transaction amounts so as to obtain a range of transaction types (payments to
tribes, payments to states, credit card transactions, vendor invoice payments, etc.).
Our sample consisted of 25 transactions from the Northwest Region that totaled
$10.04 million and 25 transactions from the Western Region that totaled
$862,000. The total amount is higher for the Northwest Region due to the
presence of a number of high value transactions. Of the 50 transactions reviewed,
16 were payments to tribes for wildland fire suppression.

Based on the results of our tests at the Northwest and Western Regions, we
selected from other regions a judgmental sample of additional agreements to
confirm the extent of problems. Regions were selected based upon the amount of
expenditures with tribes. Agreements within regions were selected based upon the
amounts involved. Because we based our work upon a limited sample, a risk
exists that the results are not applicable outside of the items sampled or outside of
the period reviewed.

We did not evaluate the effectiveness or efficiency of BIA’s firefighting
strategies, either in general or in relation to specific fires.




                                                                                  14
Appendix 2: Locations Visited
Headquarters and National Interagency Fire Center
Division of Forestry and Wildland Fire Management, Washington, DC
National Interagency Fire Center, Boise, ID

Regions, Agencies, and Tribes
Northwest Region
Northwest Regional Office, Portland, OR
Confederated Tribes of Colville, Mount Tolman Fire Center, WA
Confederated Tribes of Warm Springs, Fire Management Office, Warm Springs,
   OR
Spokane Tribe, Tribal Finance Office, Wellpinit, WA

Western Region
Western Regional Office, Phoenix, AZ
San Carlos Apache Agency, Agency and Fire Management Offices, San Carlos,
   AZ
Fort Apache Agency, Agency and Fire Management Offices, Whiteriver, AZ




                                                                            15
Appendix 3: BIA Response
The Bureau of Indian Affairs’ response to the draft report follows on page 17.




                                                                                 16
                      United States Department of the Interior
                                       OFFICE
                                       OFFI       THfo. Sl'.CRETARY
                                            CE OF Till'. Sr:.CRETARY
                                                Wa. hington,
                                                Wa.hin        DC 20240
                                                       gLo n. DC. 2024 0




                                                   NAY
                                                   MAY 31 2011
Memorandum
MemorandulTl

To:             Mary L.
                      L. Kendall
                Acting Inspector Gcncral
                                 Gcneral

From:                 F.cho Hawk
                Larry Echo
                          Secret,' l1lVfo~"T1
                Assistant Secret'U'JI'
                                     ./-M'J1

Subject:        Draft Audit Report - Rurcau of Indian Affairs:
                                                      Affairs : Wildland Fire Suppression
                RCp011
                Repo11 No. ER-IN -I3lA-OO 16-2009
                           ER-I N-HlA-0016-2009

This memorandum transmits the response to the Office of     Inspector General (OIU
                                                         ofInspcctor           (OIU)) draft audit
report on the Rurcau of Indian Atfairs'
                               Affairs ' (BIA) use of wildland (ire
                                                                fire suppression funds.

The responsiblc
    responsible individual to these recommendations will he RIA Firc
                                                                Fire Dircctor.
                                                                     Director. Lyle Carlile.

Responses to Recommcndations:
             Recommendations:

1. BfA
1. B14,. in coordination "'lith
                         with the O[(i.t:e
                                  O[(ice o(Solicilor.
                                           o[Solicitor. should determine when
                                                                         Il'hen to use each orthe
                                                                                            oft/7e
following agreements
(ollowing qgreemel1ts with tribes: Puh.     f .. 93-638
                                     f'uh . T            self~determination contracts. Pub.
                                                 93-63(1 .I'el(~determination             Pub. L. Y3-63/i
                                                                                                   93-638
cooperative agreements.       non- l'1Ib.
              agreements. and 11011- J'ub. L.L 93-638 cOII(Jeralive
                                                          cOllrerative agreernents.
                                                                        agreel'nents. as well
                                                                                         Irell as when to
    olher fill1ding
use Olher funding mechanisms.
                    mechanisms. BfA
                                 BiA should then establish and         imrlemenl {{p{Jl'opriale
                                                                  amI imolemel'll  cIQnropriale policy.
                                                                                                  policy.

Indian A
       /\ frairs concurs with this recommendation.

The 1311\,
    HlA, Deputy Bureau Director,                                                              2011,
                           Director. Trust Services will coordinate a meeting by September 2011.
regarding this issue with the appropriate
                              appropriatc Depal1ment
                                          Depa11ment of   Interior stakeholders to formulate
                                                       ofintcrior
standard policy and procedures for each admin istrative tool used to transter the Wildland !-'ire
                                                                                             Fire
Program to a Tribe. Uy December 30, 20112011,, RIA w ill produce
                                                    will producc a draft policy tor review by
                                    AS-lA and the Office
appropriate representatives within AS-I/\                         Solicitor. By March 30. 2012 the
                                                   Orfice of the Solicitor.
BIA will produce a tinal policy for implementation
                                     implement<ltion in Sel fr Governance negotiations with
paJ1icipating
pa11icipating tribes.

2. BfA
   BiA should develop and require the use ora standardized temp/ate [or each tV[le lI{trihal
            ((ill1tiing mechanism). Each templale
agreement (fimding                            lemplate should provide clear instructions to ensllre
                                                                                            ensure
consistenql
consistenc)! and    mllst identify,
                    must icientifj;. at a minimum:




                                                                                                            17
Indian Affairs concurs with this recommendation.
fndian                           recommendation .

Uy Octoher I.1.20  II. BIA.
                2011.  BlA. in coonJination
                               wordination with each BIA 8lA and i\S-li\
                                                                  AS-fA administrative entity, wiJl
                                                                                                  will
provide a dran
           draft standardized template for
                                       [or each type of tribal agreement or administrative tool
used to transfer wildland fire responsibility , or particular wildland fire program tasks,
                                                                                     tasks. to a tribe
or authorized tribal entity.
                     entity. Agreements and/or compact
                                                   wmpaet agreements contain two distinct elements
                                                                                               clements
that require policy and guidance to comply with the OIG  OfG recommendations. hrst is the authority
under which the agreements is enacted. and second , a section describing the program elements.
BfA will coordinate with the apprnrriate
BIA                            appropriate BlA.
                                            BIA. AS-lA
                                                   AS-IA entity or Solicitor's ottice
                                                                               office to maintain the
correct wording in the authority sections of agreements for the various administrative toolstools..

Further, the Uli\
FUl1her,      UIA will update and. when appropriate. implement standard language for program
clements that are t() he included in a wildland rire agreement or compact addendum.
                                                                              addendum . By
March 31.    201 2. the RIA will have standard templates in place. available to all regions for
        31 , 2012,
implementation . JI)ue to the fact that tribes can ch()()se what elements
implementation.                                                   clements of a program that they
                                                                                             thcy
would like to contract ., actual program elements included
                                                    incl uded in a final approved agreement will
dcpend on the individualtrihe and the internal controls needed to ensure compliance with RIA
dcpcnd                                                                                          BfA
policy.

3. BfA lleadquarters
3.      ffeadquarter.\· should conduct regularlv
                                        regular/ v scheduled fire preparedness reviews o[regional
                                                                                               of'regional
                 shU/tid he rel'iell'ed
offices. Regions shollid     reviewed at least el'erv
                                               every .5 veal's.
                                                        veal's. although more
                                                                         I/'I ore [re({lIentlv  wlluld he
                                                                                  fi'eqllenilv Wlluld
(}re(erable.
[Jre(erable.

Indian Affairs concurs
               wncurs with this
                           thi. recommendation.
                                recommendation.

B1A
BlA will develop a more comprehensive fiscal and budget accountahility review process to be
utili zed ror regional review (see recommendation four below).
utilized                                                      below) . Bli\
                                                                       UIA will devclop
                                                                                  develop the review
process by December 30. 2011201 I.. with reviews heginning
                                                    beginning in calendar yea
                                                                            yearr 2012.
                                                                                  20 12. A schedule will
                                                                                                    wiJl
    developed and implemented that wi
be devel()ped                           willII ensure all regions have a fiscal and hudget
                                                                                      hudgct
accountability review at least every five years.

-I. lJlA
    lJlA shlluld derelop
                 del'elop and implement g1lidance
                                          gllidance on performance oOhorough        financial
                                                                        o(thorough /inancial
management reviews. Guidance
                         Gliidance should
                                    shollid require inclusion    ora financial management review in
                                                      in elusion o(ajinoncial
each regular.    regional fire preparedness rel-iew
       regular, regillnal                              IIran
                                              rel'ie"" lI[ an agenCY/tribal
                                                              agencY/lribal ojjice.

Indian Atfairs
       AtJairs concurs with this recommendation.

     Program Reviell'
The Prof,!I"QI'II RevieH' Guidi'. fl1Ireau o/fndian
                          vllide. Rweau              Affairs Branch O/'
                                           o/,/ndian A.fJairs       ofFire
                                                                        Fire Managel'nenl
                                                                             Manaf,!ellleni addresses this
issue. In our program reviews. RudgetRud get and Fiscal Management accountahility
                                                                     acwuntahility is addressed and




                                                                                                             18
rated. Examples
       Fxamples include:

        1. Arc
           /\re the budget and atlministration
                                     administration practices arc in line with current Wildland Fire and
           /\
           A viation Program Management and Operations Guide and 26 lAM Pari            Part 26 on
           13udget.
           iludgel. Accountability processes are in place to ensure proper utilization of all
           Wildland Fire Management appropriations.
        2. Are Labor Distribution Reports rRIA   rRlA I GO'  sJ reviewed. corrected in a timely manner &
                                                        GO ' s]
           maintained for
                        [or all costs charged to the fire aeeounts'l
                                                              accounts?
        1. Do you maintain current Budget Authorization Documents rsuh allotments and
           allocations J on fiIi Ie?
        4. Arc Budget Tracking Documents: Doc Direct [Info PaeJ          PacJ Reports. FFS printouts and
           Ad Hoc Reports reviewed and maintained ? If          If discrepancies are found arc they
           cnrreeted
           corrected in a timely
                           timel y manner?

BIA feels the fiscal and budget aecountahility
                                accountahil ity measures we espouse arc solid for regional level
reviews. but will look at ways to strengthen as mentioned in recommendation number 3. iliA 13 1/\
will reevaluate the information we include in the Review Guide in 2011 and will network with
the 12 RIA regions to ensure their readiness/preparedness reviews contain similar
                                                                           simi lar information.

 5.
 5. illA
    lilA should establish and im[llefl1el1l             fill" the regular anall'sis
                              im[Jlement procedures [(II"                             o[Ore suppression
                                                                            analysis oUire
.Onancial  data , whelher
financial data, whether   performed    bv       Headquarters
                                       b1/ 8111 Headqucll"lers
                                           8{;1                 or by }"(!I?ional ofjices.
                                                                   bv regional o(lices.

Indian Affairs
       AtTairs concurs with this recommendation.

As noted above.
          ahove. the Budget and
                              anti Fiscal Management Checklist for regional reviews address some
of the issues on regular analysis and
                                    anti will be moditied to renee!
                                                               reflect a scheduled
                                                                         se.heduled timeframe for both
the UlA
    utA and rcgional
              regional ottices.
                       ottices . Analys
                                 Analysisi. is currently being performed by the ilIAutA at a macro level.
In concert with BIA regional fire                   officers, by December 30. 2011.
                                lire management otticers.                         20 1l. 131/\
                                                                                         J3lt\ will develop
and implement procedures that augment eUtTentcurrent reviews forror the regular analysis or
                                                                                          of fire
suppression financial data in conjunction with the efforts discussed in responses three and four
above. The resultant processes for analysis of tire suppression financial data will be developed
for use by the regional offices as well
                                     welJ (preparedness and readiness reviews).

6. 8fA
   8{A should develop and im{Jle/'nent            ond {JI"ocedures
                              il17{Jlemenl policv (lnd procedures to            promOI recording ot
                                                                    10 ensure promot             o(
wildland Ore suppression obligalions!expenses
wildlund                     obligations/expenses and(lnd promol
                                                          prom[Jt {Jal'lnent  olexpenses, I1t
                                                                  {Ja)ll1lenl o/expenses. AI a minimum,
     [Joliev
such [llil         procedures should:
           in' and procedllres

Indian AtTairs concurs with this recommendation.

The BIA currently docs not have policies and procedures in place to ensure the prompt recording
of wildland tire
            fire obligations/expenses and prompt payment of expenses. Ilowever.
                                                                       I Inwever. the Budget and




                                                                                                          19
l"iscal                                          j'rnwCll'/'1 Rel'iell'
                                  r()und in the J'rnf!,ram
Jo'iseal Management Checklist round                           Rn'iew \ruhie.
                                                                        (7uide. Bllreau
                                                                                Bureau of
                                                                                        IIf Indian AtTair.\·
                                                                                                   AlTairs
jJJ'(Jnch (?/Fire Mal1agernenf
iJranch           Management addresses some or these issues and can be modi fied         lied to
accommodate absent items. In addition. once the standard agreement tcmplate       template is in place. policy
      procedures will he developed to
and proccdures                        t() ensure
                                          ensurc that trihal agreements will reflect such timcframes
                                                                                                timdj'ames
for obi
     obligations,
         igations, billings and prompt raymcnt.
                                         rayment. New roliey and procedures wou        wouldld he in place by
                        t imeframe.
the March 31. 2012 limeframe.




                                                                                                           20
Appendix 4: Status of
Recommendations
  Recommendations      Status         Action Required

                                    No further response to
                                     OIG is required. The
                                    recommendations will
                    Resolved; not
        1-6                           be referred to the
                    implemented.
                                    Assistant Secretary for
                                     PMB for tracking of
                                       implementation.




                                                       21
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
